VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                     Department of 

                                                                    Veterans Affairs 

                                                                           Review of 

                                                                     Alleged Unauthorized 

                                                                         Commitments 





                                                                                    May 21, 2014
                                                                                   2013-00991-154 

             ACRONYMS AND ABBREVIATIONS

CMOP         Consolidated Mail Outpatient Pharmacy
eCMS         Electronic Contract Management System
FAR          Federal Acquisition Regulation
HCA          Head of Contracting Activity
MQAS         Management Quality Assurance Service
OALC         Office of Acquisition, Logistics, and Construction
OGC          Office of General Counsel
OIG          Office of Inspector General
PPV          Pharmaceutical Prime Vendor
VAAR         Veterans Affairs Acquisition Regulation
VACO         Veterans Affairs Central Office
VBA          Veterans Benefit Administration
VHA          Veterans Health Administration




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                            Email: vaoighotline@va.gov

                       On the Web: www.va.gov/oig/hotline

                     Report Highlights: Review of Alleged 

                     Unauthorized Commitments Within VA


Why We Did This Review                             example, these actions do not provide
                                                   assurance of obtaining fair and reasonable
We initiated this review in response to            prices or that competition requirements were
allegations made to the VA Office of               met. Further, the practice of institutional
Inspector General Hotline Division. The            ratifications does not hold individuals
complainant alleged that cardholders made          accountable for this serious offense.
unauthorized commitments and VA has not
performed ratification actions on identified       What We Recommended
unauthorized commitments. Unauthorized
commitments       circumvent     acquisition       We recommended the Executive in Charge,
regulations and increase the risks of VA           Office of Management and Chief Financial
misusing taxpayer funds.                           Officer,     review   FYs     2012       and
                                                   2013 purchase card transactions and submit
What We Found                                      identified unauthorized commitments for
                                                   ratification. We also recommended the
We       substantiated      the     allegations.   Principal Executive Director, Office of
Specifically,     we      estimated      during    Acquisition, Logistics, and Construction,
FYs 2012 and 2013, VA made about                   maintain an accurate database of warranted
15,600 potential unauthorized commitments          contracting officers and limit institutional
valued at approximately $85.6 million,             ratifications.
which      require     ratification     actions.
Unauthorized       commitments         occurred    Agency Comments
because of inadequate warrant information,
insufficient verification of cardholder            The Executive in Charge, Office of
warrant limitations, and insufficient training.    Management and Chief Financial Officer,
                                                   and the Principal Executive Director, Office
In December 2012, VA institutionally               of Acquisition, Logistics, and Construction,
ratified    thousands    of     unauthorized       concurred     with    the    findings   and
commitments made with the Pharmaceutical           recommendations.        We consider the
Prime Vendor instead of performing                 corrective action plans they submitted
individual ratification actions for each           acceptable and will follow up on their
unauthorized commitment.         VA lacked         implementation.
adequate controls to prevent cardholders
from making a high volume of unauthorized
commitments,        which       made       it
resource-intensive to perform ratification
actions for each unauthorized commitment.

By deviating from ratification requirements,                 LINDA A. HALLIDAY
VA lacks reasonable assurance cardholders                Assistant Inspector General
protected the Government’s interests when                 for Audits and Evaluations
goods and services were acquired. For
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding                Cardholders Made Unauthorized Commitments and VA Did Not Perform 

                           Ratification Actions ............................................................................................2
 

                           Recommendations .............................................................................................12
 

Appendix A                 Background .......................................................................................................15
 

Appendix B                 Scope and Methodology....................................................................................16


Appendix C                 Statistical Sampling Methodology ....................................................................17


Appendix D                 Inspector General Memorandum to VA Deputy Secretary Addressing 

                           Unauthorized Commitments .............................................................................19
 

Appendix E                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments .....................................................................................................21
 

Appendix F                 Executive in Charge, Office of Management, and Chief Financial Officer......22


Appendix G                 Principal Executive Director, Office of Acquisition, Logistics, and 

                           Construction ......................................................................................................24
 

Appendix H                 Office of Inspector General Contact and Staff Acknowledgments...................27


Appendix I                 Report Distribution ...........................................................................................28

                                             Review of Alleged Unauthorized Commitments Within VA



                    INTRODUCTION
Objectives          We conducted this review to determine whether VA Government purchase
                    cardholders made unauthorized commitments and whether VA performed
                    ratification actions on identified unauthorized commitments.

Hotline             The Office of Inspector General (OIG) Hotline Division received allegations
Complaint           that VA purchase cardholders made unauthorized commitments by making
                    purchases exceeding $3,000 without holding valid warrants, and that VA has
                    not performed ratification actions on identified unauthorized commitments.

Unauthorized        Unauthorized commitments are agreements that are not binding solely because
Commitments         the Government representative who made them lacked the authority to enter
                    into that agreement on behalf of the Government. Unauthorized commitments
                    include commitments made by individuals who do not have valid warrants or
                    exceed the limitations of their warrant authority.
Ratifications       The Federal Acquisition Regulation (FAR) allows ratification of unauthorized
                    commitments in certain circumstances to protect the Government’s interest.
                    FAR also states that agencies may not use ratification procedures in a manner
                    that encourages unauthorized commitments. Ratification is the act of
                    approving an unauthorized commitment by an official who has the authority to
                    do so. The Government is under no obligation to pay for goods or services
                    ordered by individuals without proper authority unless an authorized
                    contracting officer sanctions the commitment. If VA decides not to ratify and
                    pay unauthorized commitments, vendors can pursue collections from the VA
                    staff who made the unauthorized commitments.

Other               During FY 2013, VA reported processing over 5.8 million purchase card
Information         transactions valued at $3.5 billion. VA’s Deputy Chief Financial Officer is
                    responsible for the management of the Government Purchase Card Program.
                    The Office of Finance, under the Office of Management, issues purchase cards,
                    establishes spending limits, and confirms cardholders with spending limits
                    above the micro-purchase threshold have a valid warrant. Management
                    Quality Assurance Service (MQAS) performs reviews of VA facility purchase
                    card practices. VA’s Office of Acquisition and Logistics, under the Office of
                    Acquisition, Logistics, and Construction (OALC), reviews and approves all
                    warrant requests. Heads of Contracting Activities (HCA) are the approving
                    authority for ratifying unauthorized commitments.

                    The following appendixes provide additional information:

                       Appendix A provides background information
                       Appendix B details the scope and methodology
                       Appendix C explains the sampling methodology



VA Office of Inspector General                                                                 1
                                                 Review of Alleged Unauthorized Commitments Within VA



                    RESULTS AND RECOMMENDATIONS 

Finding 	           Cardholders Made Unauthorized Commitments and VA
                    Did Not Perform Ratification Actions

                    We substantiated the allegations that purchase cardholders made
                    unauthorized commitments and VA has not performed ratification actions on
                    identified unauthorized commitments. Specifically, we estimated that VA
                    made about 15,600 potential unauthorized commitments, valued at
                    approximately $85.6 million of the nearly $1.8 billion transactions over the
                    micro-purchase threshold, made by cardholders during FYs 2012 and 2013.
                    These unauthorized commitments require ratification actions.1 Purchase
                    cardholders lacking appropriate warrant authority made these unauthorized
                    commitments.

                    This occurred because of the following reasons:

                    	 Inadequate database of warrant information

                    	 Insufficient verification of cardholder warrant authority limitations

                    	 Insufficient cardholder and approving official training on unauthorized
                       commitments

                    Since 1995, cardholders made thousands of unauthorized commitments,
                    which resulted in VA violating the law by deviating from FAR ratification
                    requirements. On two occasions, VA bundled thousands of unauthorized
                    commitments made with the Pharmaceutical Prime Vendor (PPV) instead of
                    following FAR requirements to perform ratification actions for individual
                    unauthorized commitments. FAR requires agencies to review all records and
                    documents for each identified unauthorized commitment when performing
                    ratification actions. In addition, VA did not complete ratification actions for
                    unauthorized commitments identified during MQAS reviews of purchase
                    card transactions and the OIG’s Administrative Investigation of the FY 2011
                    Human Resources Conferences in Orlando, Florida (Report No.
                    12-02525-291, September 30, 2012).

                    This occurred because VA lacked adequate controls to prevent cardholders
                    from making a high volume of unauthorized commitments. This made it
                    resource-intensive for staff to perform ratification actions for each

                    1
                     Our statistical sample projections of about 7,800 transactions valued at approximately
                    $42.8 million for FY 2012 are the lower limit of the 90 percent confidence interval. We
                    calculated the 15,600 transactions valued at $85.6 million for FYs 2012 and 2013 by
                    multiplying the statistically projected 7,800 transactions and $42.8 million estimated annual
                    savings by 2 years. Appendix C provides additional statistical estimate details.



VA Office of Inspector General                                                                                 2
                                             Review of Alleged Unauthorized Commitments Within VA


                    unauthorized commitment. In addition, VA did not have timeliness
                    standards for completing ratification actions on identified unauthorized
                    commitments.

                    As a result, VA lacks sufficient controls to ensure that cardholders have valid
                    warrant authority to bind VA to agreements to obtain needed goods and
                    services. By deviating from ratification requirements, VA lacks reasonable
                    assurance cardholders protected the Government’s interests when goods and
                    services were acquired. For example, these actions do not provide assurance
                    of obtaining fair and reasonable prices or that competition requirements were
                    met. Further, the practice of institutional ratifications does not hold
                    individuals accountable for this serious offense.

Thousands of        We estimated that VA made about 15,600 potential unauthorized
Unauthorized        commitments, valued at approximately $85.6 million of the nearly
Commitments         $1.8 billion transactions over the micro-purchase threshold made by
                    cardholders, during FYs 2012 and 2013. VA took some corrective actions in
                    FY 2013. Therefore, we did not project unauthorized commitments in future
                    years. However, we will follow up in FY 2014 to gain assurance that the
                    corrective actions taken are effective.      Unauthorized commitments
                    circumvent FAR and eliminate an important system of checks and balances
                    in procuring goods and services. FAR provides contracting procedures
                    designed to maximize competition and obtain needed goods and services at
                    fair and reasonable prices.

Cardholders         We estimated that 110 VA cardholders without appropriate warrant authority
Without             made approximately 7,800 unauthorized commitments. VA policies only
Appropriate         allow contracting officers with a valid warrant, or individuals with delegated
Authority
                    authority, to make purchases above the micro-purchase threshold. In
                    addition, VA policies require the Deputy Senior Procurement Executive to
                    issue contracting officers’ Certificates of Appointments that describe their
                    warrant authority and specify:

                    	 Monetary spending limits
                    	 Types of established contracts and blanket purchase agreements that
                       contracting officers can use to make purchases
                    	 Categories of purchases contracting officers can make, such as
                       equipment, supplies, or services

                    Our statistical sample of 106 purchase card transactions identified
                    14 unauthorized commitments. Specifically, we identified nine purchase
                    card transactions made by VA Central Office (VACO) cardholders, four
                    purchase card transactions made by Veterans Benefit Administration (VBA)
                    cardholders, and one purchase card transaction made by a Veterans Health
                    Administration (VHA) cardholder. However, the following examples



VA Office of Inspector General                                                                   3
                                             Review of Alleged Unauthorized Commitments Within VA


                    highlight how additional unauthorized commitments accumulate over time
                    without early detection.

                    	 A VBA unwarranted cardholder made a purchase card transaction on
                       October 20, 2011, that we selected as part of our sample. We determined
                       the purchase was an unauthorized commitment, valued at more than
                       $31,000. The same VBA cardholder made two earlier purchases totaling
                       about $13,000 on October 4, 2011, and October 11, 2011, respectively.
                       The two additional purchases were also unauthorized commitments
                       because the cardholder did not possess a valid warrant.

                    	 A VACO cardholder made a purchase card transaction on
                       January 10, 2012, that we selected as part of our sample. We determined
                       the nearly $39,000 purchase was an unauthorized commitment because
                       the cardholder’s warrant expired on December 31, 2011. The same
                       VACO       cardholder    made      37 additional    purchases   between
                       January 3, 2012, and May 23, 2012, totaling about $709,000. The
                       additional purchases were also unauthorized commitments because the
                       cardholder did not possess a valid warrant during this period.

Changes to          OALC and VA’s Office of Finance implemented changes to the warrant and
Warrant and         purchase card approval process after identifying 2,000 purchase cards held
Purchase Card
Approval
                    by 425 unwarranted cardholders with spending limits above the
Process             micro-purchase threshold. In addition to these changes, OALC developed a
                    database of warranted individuals and issued a memorandum in November
                    2012 requiring cardholders without warrant authority to cease using purchase
                    cards for transactions over the $3,000 micro-purchase threshold.

                    The Office of Finance also began performing weekly comparisons between
                    OALC’s database of warranted individuals with US Bank’s list of purchase
                    cardholders. Additionally, the Office of Finance reduced cardholders’
                    spending limits to the micro-purchase threshold for all cardholders not
                    appearing on OALC’s database.

Control             Although recently implemented changes to the warrant and purchase card
Changes             approval process strengthened purchasing controls and can help reduce the
Insufficient
                    risk of unauthorized commitments, VA needs to take further action to
                    address the following systemic problems:

                    	 Inadequate warrant information
                    	 Insufficient verification of cardholder warrant authority
                    	 Insufficient training on unauthorized commitments

                    The Office of Management and Budget’s Circular A-123 requires Federal
                    program managers to develop and maintain effective controls that provide



VA Office of Inspector General                                                                 4
                                               Review of Alleged Unauthorized Commitments Within VA


                    reasonable assurance regarding prevention of, or prompt detection of
                    unauthorized acquisitions.

Inadequate          VA lacks an adequate database of contracting officers’ warrant information
Warrant             that OALC and the Office of Finance can use to verify warrant status for
Information         cardholders with spending limits above the micro-purchase threshold. In
                    November 2012, OALC created a database of warranted individuals.
                    According to VA’s Deputy Senior Procurement Executive, the database was
                    compiled using warrant information extracted from VA’s Electronic Contract
                    Management System (eCMS).

                    VA cannot rely on a database that was compiled using warrant information
                    extracted from eCMS because facility coordinators are not required to enter
                    warrant information or update eCMS for contracting officers who no longer
                    work for the VA organization shown on their warrant certificate. In addition,
                    previous OIG audits have repeatedly reported problems with facility staff not
                    entering required information in eCMS.2

                    To improve the reliability and adequacy of its warrant database, OALC
                    needs to record warrant information at the time of warrant approval. This
                    would improve the reliability of OALC’s warrant database because OALC’s
                    Deputy Senior Procurement Executive is the only official that can approve
                    warrants. OALC must update its information when issuing new warrants,
                    warrants expire, or contracting officers no longer work for the VA
                    organization shown on their warrant certificate. The warrant database must
                    include warrant effective and expiration dates, as well as specific description
                    of warrant authority limitations.

Insufficient        VA facility approving officials did not verify that individuals had valid
Verification of     warrants before approving purchase cards with spending limits above the
Warrant             micro-purchase threshold. Approving officials and program coordinators are
Authority
                    responsible for recommending individuals as cardholders and recommending
                    single and monthly purchase limits that do not exceed the micro-purchase
                    limit without appropriate warrant authority. In addition, approving officials
                    are responsible for monitoring cardholder use of the Government purchase
                    card to ensure purchases are legitimate.

                    VA relied on facility approving officials and program coordinators to meet
                    these requirements. However, our estimate that VA cardholders made about
                    15,600 potential unauthorized commitments during FYs 2012 and 2013,
                    demonstrates that facility approving officials and program coordinators did
                    not consistently ensure that cardholders met these requirements. To

                    2
                     Audit of VHA Management and Acquisition of Prosthetic Limbs (Report No. 11-02254-102,
                    March 8, 2012), Audit of VHA Veterans Integrated Service Network Contracts (Report No.
                    10-01767-27), and Audit of VA Veteran-Owned and Service-Disabled Veteran-Owned Small
                    Business Programs (Report No. 10-02436-234, July 25, 2011)



VA Office of Inspector General                                                                          5
                                             Review of Alleged Unauthorized Commitments Within VA


                    strengthen controls, Office of Finance needs to use OALC’s database, once
                    OALC determines the database is reliable, to verify individuals’ purchase
                    card spending limits do not exceed their warrant authority limits before
                    purchase cards are issued to them.

Insufficient        Purchase cardholders and approving officials did not receive sufficient
Unauthorized        training on unauthorized commitments. VA purchase card policies mandate
Commitment          employees to complete initial purchase card training before they receive a
Training
                    purchase card and refresher training every 2 years they hold a purchase card.
                    However, VA’s mandatory training for purchase cardholders does not
                    adequately explain what constitutes an unauthorized commitment and the
                    resulting consequences for the cardholder. For example, the training does
                    not clearly explain that unauthorized commitments include purchases above
                    the micro-purchase threshold made by a cardholder without a warrant. In
                    addition, the training does not explain that purchases made by a cardholder
                    outside the limits of their warrant authority are unauthorized commitments or
                    the potential personal liability associated with exceeding written authority.

                    VA has a training course that provides a more comprehensive understanding
                    of what constitutes an unauthorized commitment and the resulting
                    consequences for the cardholder. However, this was not a mandatory
                    training course for purchase cardholders or their approving officials until
                    December 2013, when VA updated its financial policy to mandate the
                    training.   Requiring recurring unauthorized commitment training for
                    purchase cardholders and their approving officials will help reduce future
                    unauthorized commitments.

Effect of           As a result, VA lacks sufficient controls to ensure that cardholders have valid
Unauthorized        warrant authority to bind VA to agreements to obtain needed goods and
Commitment          services.

VA Violated         Since 1995, inadequate VA controls allowed cardholders to make thousands
the Law by          of unauthorized commitments, which resulted in VA violating the law by
Deviating           deviating from FAR ratification requirements. FAR requires agencies to
From
Ratification
                    review all records and documents for each identified unauthorized
Requirements        commitment when performing ratification actions. VA institutionally
                    ratified bundled unauthorized commitments rather than following the FAR
                    requirements. In addition, VA did not complete ratification actions for
                    unauthorized commitments identified during MQAS reviews of purchase
                    card transactions and the OIG’s Administrative Investigation of the FY 2011
                    Human Resources Conferences. Although aware they were making
                    unauthorized commitments, VA did not implement needed controls to
                    prevent future unauthorized commitments and avoid the need to complete
                    ratification actions.

Ratification        Individual ratification is the act of approving an unauthorized commitment
Requirements        by an official who has the authority to do so. Individual ratification also


VA Office of Inspector General                                                                   6
                                               Review of Alleged Unauthorized Commitments Within VA


                    emphasizes the seriousness of unauthorized commitments and helps to
                    ensure VA holds employees accountable for making unauthorized
                    commitments.

                    Institutional ratification occurs when the Government seeks and receives the
                    benefits from an otherwise unauthorized contract commitment. However,
                    officials with ratifying authority must know of the unlawful promise, and
                    such knowledge is a key element of an institutional commitment claim.3

                    Contracting officers, including purchase cardholders within their level of
                    authority, may commit VA to pay for supplies or services. VA is under no
                    obligation to pay for the supplies or services ordered by individuals without
                    proper authority unless an authorized official ratifies the action and a
                    contracting officer with appropriate authority sanctions that commitment.

                    A VA employee who makes an unauthorized commitment must submit a
                    request for ratification to a contracting officer and furnish the contracting
                    officer with all records and documents concerning the commitment,
                    including a complete written Statement of Facts. A Statement of Facts
                    provides the reason the individual selected the proposed contract, other
                    sources considered, and the estimated or agreed contract price. The
                    statement also needs to include a citation of the available appropriation,
                    whether the contractor has commenced performance, and the name of the
                    individual responsible for the unauthorized commitment.

                    The contracting officer must evaluate the employee’s request to ensure all
                    information required by the Veterans Affairs Acquisition Regulation
                    (VAAR) is included, and submit a request for ratification to a HCA. VAAR
                    stipulates that HCAs must review all records and documents concerning each
                    unauthorized commitment including a complete written Statement of Facts.
                    HCAs either approve the request and ratify the unauthorized commitment or
                    disapprove the request.

                    Prompt ratification actions are critical to protecting the Government’s
                    interest and holding employees accountable for making unauthorized
                    commitments. VA policies state HCAs are responsible for counseling
                    individuals who make unauthorized commitments and employees may be
                    subject to disciplinary actions. For disapproved requests, VA may issue bills
                    of collection to employees who made unauthorized commitments.




                    3
                     Doe v.United States, 58 Fed. Cl. 479, 486 (2003); Perri v.United States, 53 Fed Cl. at
                    401-02; and City of El Centro v. United States, 922 F.2d 816, 821 (Fed. Cir. 1990).



VA Office of Inspector General                                                                           7
                                            Review of Alleged Unauthorized Commitments Within VA


Office of           In July 2012, VA’s Deputy Assistant Secretary, Office of Acquisition and
General             Logistics, received VA’s Office of General Counsel’s (OGC) opinion
Counsel             whether open-market orders placed under the PPV before
Opinions
                    November 10, 2011, were unauthorized commitments. OGC concluded tens
                    of thousands of open-market orders placed under the PPV between 1995 and
                    November 10, 2011, were unauthorized commitments. Under the PPV
                    contract, VA could place open-market orders if the person placing the order
                    had the authority and followed appropriate procurement procedures. OGC’s
                    July 2012 opinion also concluded that since VHA received and paid for the
                    drugs ordered, a court would likely consider the unauthorized commitments
                    as institutionally ratified. They concluded VA was likely without a remedy
                    because VA had not performed timely ratifications actions for the PPV
                    purchases.

                    In August 2013, VA’s Deputy Assistant Secretary requested OGC’s opinion
                    on whether an unwarranted official obligating the Government above the
                    micro-purchase threshold constitutes an unauthorized commitment requiring
                    ratification. OGC’s December 2013 opinion concluded that depending on
                    the circumstances of the purchase, if an unwarranted official obligates the
                    Government above the micro-purchase threshold, this would be an
                    unauthorized commitment and ratification would be appropriate. This
                    opinion emphasizes the need to review relevant records, documents, and
                    Statements of Fact concerning individual unauthorized commitments to
                    determine if ratification is the most appropriate action.

Institutionally     In February and June 2012, the House Committee on Veterans’ Affairs held
Ratified            two hearings concerning unauthorized purchases made with the PPV. At the
Thousands of
Unauthorized
                    hearings, VA executives provided testimony regarding thousands of
Commitments         unauthorized open market purchases made with the PPV. After the hearings,
                    and based upon OGC’s opinion that a court would likely consider the
                    unauthorized commitments as institutionally ratified, VA institutionally
                    ratified thousands of bundled unauthorized commitments made with the
                    PPV.

                    After discovering the unauthorized commitments made with the PPV prior to
                    November 10, 2011, VHA instructed pharmaceutical staff to cease making
                    improper purchases of open market items through the PPV. Despite VHA’s
                    instructions, VHA staff continued to make additional unauthorized
                    commitments from November 10, 2011, through August 9, 2012. VHA
                    facility pharmaceutical staff reportedly made approximately 9,700 additional
                    unauthorized commitments with the PPV totaling almost $3.9 million.

                    On September 27, 2012, VHA requested VA’s Deputy Senior Procurement
                    Executive approval to deviate from required ratification reviews, proposing a
                    consolidated approach for HCA approval and ratification of the unauthorized
                    commitments. The request stated it is not possible to require individual



VA Office of Inspector General                                                                 8
                                                 Review of Alleged Unauthorized Commitments Within VA


                    memos from each ordering officer that contains the ratification information
                    required by VAAR.

                    VHA’s request for HCA approval to ratify the unauthorized commitments
                    stated there was a bona fide requirement for the purchases and the
                    Government received benefits from the purchases. However, VHA did not
                    address whether the HCA met the requirement set by relevant court cases,
                    that officials with ratifying authority must know of the unlawful promise at
                    the time of the unauthorized commitment, not at a later date as was the case
                    with VA, and such knowledge is a key element of an institutional
                    commitment claim. In addition, VHA considered the vendor charges fair and
                    reasonable at 9.3 percent above Wholesale Acquisition Cost.4 In November
                    2012, the Deputy Senior Procurement Executive approved the deviation, and
                    in December 2012, VHA institutionally ratified the nearly 9,700
                    unauthorized commitments.

                    While VHA considered vendor charges fair and reasonable in its request to
                    deviate from FAR requirements, OIG took exception with VA’s assessment
                    of fair and reasonable prices in its September 2012 review of PPV purchases.
                    Specifically, OIG’s Review of Open Market Purchases Under VA’s
                    Pharmaceutical Prime Vendor Contract Number V797P-1020 Awarded to
                    McKesson Corporation (Report No. 12-01012-298, September 28, 2012),
                    reported that between January 12 and February 29, 2012, VHA considered
                    the prices paid at 6.2 percent above the Wholesale Acquisition Cost fair and
                    reasonable for more than 3,000 unauthorized commitments made with the
                    PPV. OIG stated evidence of pre-award reviews of proposals found vendors
                    were offering significant discounts off the Wholesale Acquisition Cost.

                    VA inappropriately relied on institutional ratification as an easy means to
                    ratify large numbers of unauthorized commitments rather than implementing
                    controls that would prevent or minimize VA staff from making recurring
                    unauthorized commitments. When VA bundles unauthorized commitments
                    to perform institutional ratification, it compromises a thorough review of
                    each transaction for compliance with legal requirements. It also precludes
                    VA from ensuring fair and reasonable pricing and holding individuals
                    accountable when appropriate.




                    4
                     The Medicare Prescription Drug, Improvement and Modernization Act of 2003 (Public Law
                    108-173) defines Wholesale Acquisition cost as the manufacturer’s list price of the drug or
                    biological to wholesaler or direct purchases in the United States, not including prompt pay
                    or other discounts, rebates or reductions in price for the most recent month for which the
                    information is available, as reported in wholesale price guides.



VA Office of Inspector General                                                                               9
                                            Review of Alleged Unauthorized Commitments Within VA


MQAS                VA did not promptly complete ratification actions for unauthorized
Recommended         commitments identified during MQAS’ purchase card reviews, its own
Ratification        oversight function. From FY 2010 through 2012, MQAS identified
Actions Not
Completed           156 unauthorized commitments totaling just over $500,000 that required
                    ratification actions. The unauthorized commitments included purchases
                    above the micro-purchase threshold made by unwarranted cardholders and
                    split purchases that when totaled, exceeded the micro- purchase limit.

                    As of August 2013, VA facilities had not completed ratification actions on
                    95 of 156 of the unauthorized commitments, which are valued at just over
                    $300,000. Of the 95 unauthorized commitments, 14 were pending
                    ratification since FY 2010, 30 since FY 2011, and 51 since FY 2012. When
                    VA does not promptly complete ratification actions for identified
                    unauthorized commitments, MQAS’ purchase card reviews are ineffective.
                    In addition, delaying ratification actions decreases VA’s opportunity to
                    prevent additional unauthorized commitments from occurring and to hold
                    individuals accountable for making purchases without appropriate authority.

Additional          In its 2012 administrative investigation report, the OIG found that a VA
Unauthorized        employee made unauthorized commitments totaling over $100,000 for
Commitments         Human Resources conference expenses. OIG recommended that VA
Not Ratified
                    accomplish a special review of purchase card transactions made in support of
                    VA Learning University conferences. In a September 2012 memorandum,
                    the Inspector General requested the VA Deputy Secretary order a review be
                    conducted to determine if any other VA personnel are committing
                    Government funds in support of conferences without appropriate authority to
                    do so. The memorandum also requested VA to determine if ratification
                    actions were required for the identified unauthorized commitments.
                    Appendix D provides a copy of the memorandum.

                    In response, VA determined six cardholders made potentially $5.4 million of
                    the unauthorized commitments between October 2009 and September 2012.
                    In January 2013, OALC’s HCA reported that VA could not ratify
                    $5.2 million of the transactions because of insufficient documentation to
                    assess compliance with FAR and VAAR. VA’s Human Resources and
                    Administration reported taking disciplinary action against these six
                    cardholders.

Reasons for         VA’s lack of adequate controls to prevent unauthorized commitments from
Deviating           occurring resulted in VA staff not performing ratification actions for each
From FAR            unauthorized commitment in accordance with FAR requirements. Instead,
Ratification        VA deviated from these requirements by institutionally ratifying thousands
Requirements
                    of unauthorized commitments or not pursuing ratification actions on
                    individual unauthorized commitments. Until VA establishes adequate
                    controls, VA cardholders will continue to make a high volume of
                    unauthorized commitments.



VA Office of Inspector General                                                               10
                                             Review of Alleged Unauthorized Commitments Within VA


                    VA needs to establish controls that prevent unauthorized commitments or
                    detect them soon after they occur, rather than months or years after many
                    occurrences. This will prevent cardholders from making a high volume of
                    unauthorized commitments and enable staff to perform ratification actions on
                    an individual basis. For example, from October 31, 2011, through
                    August 18, 2012, one of our sampled cardholders, who had a
                    $100,000 warrant authority, made 18 unauthorized commitments totaling
                    about $4.6 million. The 18 unauthorized commitments ranged from about
                    $116,000 to nearly $354,000. These unauthorized commitments occurred
                    over a period of nearly 10 months without being detected. VA could have
                    prevented or reduced the number of unauthorized commitments with earlier
                    detection.

                    In addition, VA does not have timeliness standards for completing
                    ratification actions on identified unauthorized commitments. MQAS policies
                    require routine follow-up with facility directors on the status of ratification
                    actions. If the facilities do not respond within 30 calendar days of initial
                    contact, the issue is ultimately elevated to the MQAS Director for further
                    direction and action. However, MQAS’ follow up procedures were
                    ineffective. As a result, VA did not ratify 95 unauthorized commitments
                    made during FYs 2010 through 2012. The value of these unauthorized
                    commitments is just under $300,000.

Effect of           By deviating from FAR ratification requirements to review all records and
Deviating from      documents for each unauthorized commitment, VA lacks reasonable
FAR                 assurance that cardholders protected the Government’s interests by obtaining
Ratification
Requirements
                    goods and services at fair and reasonable prices or that those individuals are
                    held accountable for this serious offense. Due to the volume of our
                    estimated unauthorized commitments, VA needs to conduct a special review
                    to identify FYs 2012 and 2013 purchase card transactions made by
                    cardholders without appropriate warrant authority. VA should also perform
                    ratification actions and consider holding cardholders and their approving
                    officials accountable for unauthorized commitments. By taking these
                    actions, VA will ensure efficient stewardship of taxpayer funds.

Conclusion          We substantiated the allegation that VA purchase cardholders made
                    unauthorized commitments and VA violated the law by not performing
                    ratification actions in compliance with FAR and VAAR. VA’s unauthorized
                    commitments circumvented FAR and VAAR and eliminated an important
                    system of checks and balances designed to maximize competition and obtain
                    needed goods and services at the lowest possible prices. By identifying
                    unauthorized commitments made by purchase cardholders, performing
                    individual ratification actions, and taking steps to prevent future
                    unauthorized commitments, VA can ensure better stewardship of funds
                    needed to provide services to veterans.




VA Office of Inspector General                                                                  11
                                            Review of Alleged Unauthorized Commitments Within VA


                    Recommendations

                    1. We recommended the Executive in Charge, Office of Management and
                    Chief Financial Officer, review FYs 2012 and 2013 purchase card
                    transactions above the micro-purchase threshold and submit identified
                    unauthorized commitments to Heads of Contracting Activities for ratification
                    actions.

                    2. We recommended the Executive in Charge, Office of Management and
                    Chief Financial Officer, establish policies and procedures to perform
                    recurring reviews of purchase card transactions above the micro-purchase
                    threshold to identify transactions made by cardholders without appropriate
                    warrant authority.

                    3. We recommended the Executive in Charge, Office of Management and
                    Chief Financial Officer, revise policies and procedures to verify that
                    purchase card spending limits do not exceed warrant authority limits before
                    issuing individuals purchase cards with spending limits above the
                    micro-purchase threshold.

                    4. We recommended the Executive in Charge, Office of Management and
                    Chief Financial Officer, require recurring unauthorized commitment training
                    for purchase cardholders and their approving officials.

                    5. We recommended the Executive in Charge, Office of Management and
                    Chief Financial Officer, ensure the Management Quality Assurance Service
                    follow-up on the status of ratification of identified unauthorized
                    commitments.

                    6. We recommended the Principal Executive Director, Office of
                    Acquisition, Logistics, and Construction, direct Heads of Contracting
                    Activities to perform individual ratification actions for unauthorized
                    commitments identified by the Executive in Charge, Office of Management
                    and Chief Financial Officer’s review of FYs 2012 and 2013 purchase card
                    transactions above the micro-purchase threshold.

                    7. We recommended the Principal Executive Director, Office of
                    Acquisition, Logistics, and Construction, create and maintain an accurate
                    database of warranted VA contracting officers that includes warrant effective
                    and expiration dates, and specific warrant authority limitations.

                    8. We recommended the Principal Executive Director, Office of
                    Acquisition, Logistics, and Construction, establish policies and procedures
                    requiring Heads of Contracting Activities to complete ratification actions
                    within a specified time period after the identification of unauthorized
                    commitments.



VA Office of Inspector General                                                                12
                                            Review of Alleged Unauthorized Commitments Within VA


                    9. We recommended the Principal Executive Director, Office of
                    Acquisition, Logistics, and Construction, limit institutional ratifications by
                    ensuring every unauthorized commitment meets the ratification review
                    requirements.

Office of           The Executive in Charge, Office of Management and Chief Financial
Management          Officer, concurred with the findings, recommendations, and comments on
Comments
                    the projection of potential unauthorized commitments. The Executive in
                    Charge requested two changes to the report regarding the purchase card
                    approval process and training provided to cardholders. The Executive in
                    Charge also stated that the Office of Management began a review of
                    FY 2013 purchase card transactions above the micro-purchase threshold.
                    The preliminary results narrowed the universe of possible unauthorized
                    commitments for FY 2013 to transactions totaling $6.4 million. The
                    Executive in Charge noted this potential universe is significantly less than
                    the $42.8 million projected in the report.

                    For Recommendation 1, Office of Management is currently exploring a
                    combination of data mining and statistical sampling techniques to identify
                    FYs 2012 and 2013 unauthorized commitments. Office of Management will
                    complete this review and submit unauthorized commitments to HCAs by
                    April 2015. For Recommendation 2, Office of Management will update
                    VA’s Financial Policy Government Purchase Card Program to establish
                    policies and procedures to perform recurring reviews of purchase card
                    transactions to identify cardholders without appropriate warrant authority by
                    May 2014.

                    The Executive in Charge stated Recommendations 3 and 4 were
                    accomplished with the last revision of VA’s Financial Policy, Government
                    Purchase Card Program, dated December 2013, and requested closure of
                    these recommendations. For Recommendation 5, Office of Management will
                    develop new procedures to elevate unauthorized commitments that have not
                    been ratified within 3 months of OALC’s specified period for completing
                    ratification actions. These procedures will be developed after OALC
                    establishes the OIG recommended policies and procedures.

OALC                The Principal Executive Director, Office of Acquisition, Logistics, and
Management          Construction, concurred with the Findings and Recommendations 6, 7, and 9,
Comments            and partially concurred with Recommendation 8. The Principal Executive
                    Director agreed with establishing policies and procedures to complete
                    ratification actions within a specified period after identifying unauthorized
                    commitments, but disagreed with requiring HCAs to recommend disciplinary
                    action for purchase cardholders and their approving officials. The Principal
                    Executive Director stated disciplinary action is at the discretion of the
                    supervisor.




VA Office of Inspector General                                                                 13
                                            Review of Alleged Unauthorized Commitments Within VA


                    OALC will issue a memorandum directing HCAs to perform individual
                    ratification actions for unauthorized commitments identified by the Office of
                    Management’s review of FYs 2012 and 2013 purchase card transactions
                    above the micro-purchase threshold. In January 2014, OALC transitioned to
                    an interim warrant management system and will transition to a Federal-wide
                    system as directed by the Office of Management and Budget. OALC will
                    develop policies that require HCAs to perform ratifications within a specified
                    period after the identification of unauthorized commitment and limits
                    institutional ratifications by ensuring every unauthorized commitments meets
                    ratification review requirements. These corrective actions will be completed
                    by September 30, 2014.

OIG Response        The Executive in Charge’s and Principal Executive Director’s comments and
                    corrective action plans are responsive to the intent of the recommendations.
                    We revised the report to address the Executive in Charge’s requested
                    changes regarding the purchase card approval process and training provided
                    to cardholders. Based on Office of Management official’s explanation of its
                    review of FY 2013 purchase card transactions, we maintain our position that
                    VBA’s $6.4 million universe of possible unauthorized commitments is
                    understated.

                    Office of Management’s review did not include identifying unauthorized
                    commitments made by cardholders who exceeded their warrant authority,
                    which our audit found were the highest dollar unauthorized commitments.
                    For example, one cardholder who had a $100,000 warrant authority, made
                    18 unauthorized commitments totaling about $4.6 million. In addition,
                    Office of Management’s review relied on OALC’s database of warranted
                    cardholders, which our audit found to be inadequate and unreliable, because
                    the database included cardholders who no longer had valid warrant authority.

                    We reviewed Office of Management’s revisions to VA’s Financial Policy,
                    Government Purchase Card Program, and determined the revisions met the
                    intent of Recommendations 3 and 4. Therefore, we consider these
                    recommendations closed. We also removed the section of Recommendation
                    8 related to disciplinary action for cardholders and approving officials to
                    address the Principal Executive Director’s statement that disciplinary action
                    is at the discretion of the supervisor. We will monitor implementation of
                    planned actions for the open recommendations and will close them when we
                    receive sufficient evidence demonstrating progress in addressing the issues
                    identified. Appendix F contains the full text of the Executive in Charge,
                    Office of Management and Chief Financial Officer’s comments, and
                    Appendix G contains the full text of the Principal Executive Director, Office
                    of Acquisition, Logistics, and Construction’s comments.




VA Office of Inspector General                                                                 14
                                             Review of Alleged Unauthorized Commitments Within VA


Appendix A          Background

Allegation          On November 26, 2012, OIG received an allegation of gross waste and
                    mismanagement resulting from the improper use of VA Government
                    purchase cards. The allegation contended unwarranted purchase cardholders
                    were using purchase cards to make purchases above $3,000, which may have
                    resulted in thousands of unauthorized commitments. The allegation further
                    asserted that VA has not properly ratified identified unauthorized
                    commitments.

FAR                 FAR defines a micro-purchase as an acquisition for supplies or services, the
Definitions         aggregate amount not exceeding the $3,000 micro-purchase threshold. A
                    contract action is any oral or written action that results in the purchase, rent,
                    or lease of supplies or equipment, services, or construction using
                    appropriated dollars over the micro-purchase threshold or modification to
                    these actions regardless of dollar value.

Congressional       Congress has expressed significant concern regarding VA’s acquisition
Hearings            practices. In February 2012, the House Committee on Veterans’ Affairs,
                    held a hearing titled Examining VA’s Pharmaceutical Prime Vendor
                    Contract. During the hearing, VA reported it was working to ensure all
                    contracting officers would meet Federal Acquisition Certifications by the end
                    of FY 2012, and reorganizing VHA procurement staffs under a new
                    management line that provides management and oversight dedicated to
                    improving procurement operations. VA’s Office of Acquisition and
                    Logistics reportedly met Federal Acquisition Certification requirements for
                    its contracting officers in October 2013.




VA Office of Inspector General                                                                    15
                                            Review of Alleged Unauthorized Commitments Within VA


Appendix B          Scope and Methodology

Scope               We conducted our review from February 2013 through February 2014. The
                    review evaluated an allegation that VA personnel made unauthorized
                    commitments using Government purchase cards. We restricted our scope to
                    reviewing transactions above the $3,000 micro-purchase threshold. The
                    transactions included purchases made by VACO, VBA, and VHA
                    cardholders. The review did not include transactions made with other types
                    of cards, such as those used to purchase official Government travel (Travel
                    Cards) and to pay Fee Basis Program healthcare providers (Fee Cards).

                    We reviewed 930 purchase card transactions selected from a universe of
                    about 112,000 purchase card transactions made during FY 2012 totaling
                    approximately $1.1 billion. We examined purchase card controls and VA’s
                    efforts to complete ratification actions in FYs 2012 and 2013. The review
                    included site visits at VACO in Washington, DC.

Methodology         We examined Federal and VA Acquisition Regulations and applicable VA
                    policies, procedures, directives, and handbooks.            We interviewed
                    management from VA’s OALC and Office of Finance. For sampled
                    transactions, we contacted purchase cardholders to obtain and examine
                    warrant certificates, purchase orders, contracts, and invoices. Appendix C
                    provides details on the statistical sampling methodology and projections.

Reliability of      We used US Bank computer-generated VA purchase card data to select
Computer-           transactions above $3,000 made by purchase cardholders during FY 2012.
Processed
Data
                    To assess the reliability of the purchase card data, we compared selected data
                    elements, such as the purchase cardholder and vendor name, purchase card
                    number, and purchase date and amount, to hard-copy purchase orders. We
                    concluded the purchase card data was sufficiently reliable to accomplish the
                    review objective.

Inspection and      We conducted our review in accordance with Quality Standards for
Evaluation          Inspection and Evaluation published by the Council of the Inspectors
Standards           General on Integrity and Efficiency. We planned and performed the review
                    to obtain sufficient, appropriate evidence to provide a reasonable basis for
                    our findings and conclusions based on our review objective. We believe that
                    the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our review objective.




VA Office of Inspector General                                                                 16
                                                Review of Alleged Unauthorized Commitments Within VA


Appendix C          Statistical Sampling Methodology

Approach            To evaluate whether VA purchase cardholders made unauthorized
                    commitments, we reviewed a representative sample of purchase card
                    transactions over the $3,000 micro-purchase threshold. We used statistical
                    sampling to quantify the extent of unauthorized commitments and to estimate
                    potential monetary benefits.

Universe            The universe included about 112,000 purchase card transactions over the
                    $3,000 micro-purchase threshold totaling approximately $1.1 billion made
                    by VA purchase cardholders during FY 2012. We adjusted the universe by
                    excluding 445 “payment-only” purchase card transactions valued at about
                    $7.9 million.

Sampling            From the adjusted universe, we reviewed 930 transactions with a total value
Design              of about $16.9 million. We stratified the universe of transactions into five
                    strata.

                    	 Strata 1-3 included 106 transactions that we sampled after further
                       stratifying transactions into three stratum: $3,000.01 to $25,000.00,
                       $25,000.01 to $150,000.00, and greater than $150,000.00.
                    	 Stratum 4 included 825 VHA Consolidated Mail Outpatient Pharmacy
                       (CMOP) transactions.
                    	 Stratum 5 included the only National Cemetery Administration purchase
                       card transaction over the $3,000 micro-purchase threshold.

                    Table 1 shows the five strata and details the sample transactions reviewed
                    and the universe of transactions associated with each stratum.

                                 Table 1. Purchase Card Transaction Reviews by Strata
                                                                   Reviewed
                                          Strata                                    Universe
                                                                  Transactions
                           1. VHA (Excluding CMOPs)                      45         109,220
                           2. VBA                                        31           1,000
                           3. VACO                                       30             760
                           4. VHA CMOPs                                 824             825
                           5. National Cemetery
                                                                          0                1
                              Administration
                                         Total Transactions:            930         111,806
                           Source: VA OIG statistical analysis




VA Office of Inspector General                                                                   17
                                                 Review of Alleged Unauthorized Commitments Within VA


                     While reviewing the sampled transactions, we identified transactions that
                     were erroneous vendor charges.5 Therefore, we adjusted the original
                     universe of about 112,000 transactions to account for the estimated number
                     of transactions that were erroneous vendor charges, which resulted in an
                     adjusted universe of about 109,000 transactions.

Weights              We calculated population estimates in this report using weighted sample
                     data. Sampling weights are computed by taking the product of the inverse of
                     the probabilities of selection at each stage of sampling. We used WesVar to
                     calculate population estimates and associated sampling errors. WesVar
                     employs replication methodology to calculate margins of error and
                     confidence intervals that correctly account for the complexity of the sample
                     design.

Estimates and        We based our calculations of the margins of error on a 90 percent confidence
Margins of           interval. Margins of error and confidence intervals are indicators of
Error                estimates precision. For example, if we repeated this review with multiple
                     samples, the confidence intervals would differ for each sample, but would
                     include the true universe value 90 percent of the time. For example, we are
                     90 percent confident the universe of purchase card transactions that were
                     unauthorized commitments ranged between the most conservative estimates
                     of 7,800, up to 18,700. For each estimate, we used the lower limit of the
                     90 percent confidence interval. Table 2 shows the estimated unauthorized
                     commitments made by purchase cardholders during FY 2012.

                 Table 2. FY 2012 Estimated Purchase Card Unauthorized Commitments
                                             ($ in millions)
                                                                        90% Confidence
                                                    Margin of                Interval
                 Description       Estimated                                                      Sample
                                                     Error             Lower       Upper
                                                                       Limit       Limit
                Transactions         13,200             5,400          7,800        18,700          14
                    Percent            12%                5%             7%           17%
                Cardholders             200                89            110           290          11
                     Percent           14%                6%             7%           20%
                Amounts               $93.2             $50.1          $42.8        $143.0          14
                    Percent              9%               3%             5%           12%
                     Source: VA OIG statistical analysis

                     Note: Numbers rounded for report presentation.


                     5
                      One of the VHA-CMOP transactions and the only National Cemetery Administration
                     transaction were erroneous vendor charges. We did not review these transactions because
                     the vendors reversed the charges.



VA Office of Inspector General                                                                           18
                                                       Review of Alleged Unauthorized Commitments Within VA


Appendix D               Inspector General Memorandum to VA Deputy
                         Secretary Addressing Unauthorized Commitments



                  Department of                                          Memorandum
                  Veterans Affairs

          Date:	        September 20, 2012

          From:	        Inspector General (50)

          Subj:	        Implementation Actions Recommended to Address Unauthorized Commitments of

                        Funds


            To:         Deputy Secretary of Veterans Affairs (00)

                   1. 	 During our work on the Administrative Investigation of FY 2011 Human Resources
                        Conferences in Orlando, FL, it came to our attention that a conference event
                        planner lacked appropriate authority to act as a Contracting Officer and
                        Contracting Officer’s Representative.     The individual used a Government
                        purchase card for purchases above the micro-purchase threshold without warrant
                        authority and authorized add-on goods and services in excess of the firm-fixed
                        price hotel contract with Marriott. The resulting commitments of funds this
                        individual made were unauthorized. (see attachment)


                   2. 	 We also believe additional staff that support conference activities within VA lack
                        appropriate authority and have made unauthorized commitments of funds.
                        Although we did not review other conferences during our review, we received
                        information that individuals lacking the appropriate authority placed hotel contract
                        actions associated with additional conferences, such as an SES Onboarding
                        session in Potomac, MD, in late August 2012 and a Workers Compensation
                        conference scheduled for Dallas, TX, this week.


                   3. 	 Given the seriousness of unauthorized commitments, we ask that you order a
                        review be conducted to determine if any other VA personnel are committing
                        Government funds in support of conferences without appropriate authority to do
                        so. If there are individuals that do not have the proper authority, please identify
                        any unauthorized commitments of funds made through either contract actions or
                        use of Government purchase cards and determine if ratifications are required.
                        Ratifications can only be done when specific conditions are met. The basic
                        tenents of the ratification process include:

                                Benefit was received by the Government.
                                Funds were available at the time the unauthorized commitment was
                                 made.
                                Contracting Officer determines the price to be fair and reasonable.
                                The Contracting Officer recommends payment and Legal Counsel
                                 concurs.




VA Office of Inspector General                                                                                 19
                                                   Review of Alleged Unauthorized Commitments Within VA




               4. 	 We would appreciate receiving the results of your review, along with details of the
                    corrective actions planned and taken to prevent future occurrences. If you or your
                    staff wish to discuss this issue, please contact Ms. Linda A. Halliday, Assistant
                    Inspector General for Audits and Evaluations, at (202) 461-4725.




                    GEORGE J. OPFER


                    Attachment




VA Office of Inspector General                                                                            20
                                                    Review of Alleged Unauthorized Commitments Within VA


Appendix E             Potential Monetary Benefits in Accordance With
                       Inspector General Act Amendments



                                                                            Better Use of         Questioned
      Recommendation                Explanation of Benefits
                                                                               Funds                Costs


                                    Review FYs 2012 and 2013
                                    purchase card transactions
                                    above the micro-purchase
           1 and 6 	                threshold to identify                          $0               $85,600,000
                                    unauthorized commitments
                                    and perform ratification
                                    actions.


                                                             Total:                $0               $85,600,000

                       Note: We calculated the $85.6 million by multiplying the statistically projected $42.8 million
                       estimated annual savings by 2 years ($42.8 x 2 years = $85.6 million). Our statistical sample
                       projection of $42.8 million is the lower limit of the 90 percent confidence interval, which
                       ranged from $42.8 to $143 million, and represents the most conservative estimate. In FY
                       2013, VA took some corrective actions including reducing cardholders’ spending limits to
                       the micro-purchase threshold. Therefore, we did not project unauthorized commitments in
                       future years. However, to ensure management of future purchases can be effectively
                       monitored, VA needs to strengthen the reliability of its contracting officer warrant database.
                       We will follow up in FY 2014 to gain assurance that the corrective actions taken are
                       effective.




VA Office of Inspector General                                                                                   21
                                                    Review of Alleged Unauthorized Commitments Within VA


Appendix F            Executive in Charge, Office of Management, and Chief
                      Financial Officer



                  Department of                                      Memorandum
                  Veterans Affairs

          Date:	     April 25, 2014

          From:	     Executive in Charge, Office of Management, and Chief Financial Officer (004)

          Subj:	     VA Office of Inspector General (OIG) Draft Report, Review of Alleged 

                     Unauthorized Commitments


            To:      Assistant Inspector General for Audits and Evaluations (52)


                     1. I appreciate the opportunity to respond to the draft OIG report, “Review of
                     Alleged Unauthorized Commitments.” I concur with the report’s findings; however,
                     I would like to request two changes. First, the Office of Management (OM)
                     provided all requested documentation to the audit team as evidence that OM
                     performs a weekly comparison between the Office of Acquisition, Logistics, and
                     Construction’s (OALC) database of warranted individuals with U.S. Bank’s list of
                     purchase cardholders. We believe including ‘reportedly’ in the report indicates
                     that OIG disagrees that this action is occurring (page 4, second full paragraph).
                     Second, the report indicates that the unauthorized commitment training course
                     available is not mandatory for purchase cardholders or their approving officials
                     (page 6, second full paragraph). However, as of December 2013, OM updated
                     the financial policy to make the course mandatory and provided the updated policy
                     to the OIG.
                     2. I concur with comments on the projection of potential unauthorized
                     commitments. By January 1, 2013, OM had removed the ability to make
                     purchases above the micro-purchase threshold from 353 cardholders. In
                     response to OIG’s recommendation that OM review FYs 2012 and 2013 purchase
                     card transactions above the micro-purchase threshold, we began our review
                     focusing on FY 2013. Although preliminary, we have narrowed the universe of
                     possible unauthorized commitments for FY 2013 to 752 transactions, totaling $6.4
                     million. The $6.4 million is a worst-case scenario, meaning that further review
                     may determine that some of these transactions were, in fact, appropriate and not
                     unauthorized commitments. This potential universe for FY 2013 is significantly
                     less than the $42.8 million project in the report. The reduction in potential
                     unauthorized commitments is a result of changes in internal controls made by OM
                     and OALC in October to December 2012.
                     3. I concur with the recommendations made to the Executive in Charge, OM and
                     Chief Financial Officer.

                     4. Due to the workload associated with recommendation 1, OM began efforts to
                     implement this recommendation in February 2014, prior to the draft report being
                     issued. Based on additional communication with the OIG, OM is currently
                     exploring a combination of data mining and statistical sampling techniques to be
                     responsive while still ensuring that the work can be completed in one year. OM
                     will complete this review and submit unauthorized commitments to Heads of
                     Contracting Activities by April 2015.




VA Office of Inspector General                                                                           22
                                                 Review of Alleged Unauthorized Commitments Within VA




                   Page 2.

                   Subj: OIG Draft Report, Review of Alleged Unauthorized Commitments


                   5. Regarding recommendation 2, OM is currently updating VA’s Financial Policy
                   “Government Purchase Card Program,” Volume XVI, Chapter 1, to establish
                   policies and procedures to perform recurring reviews of purchase card
                   transactions above the micro-purchase threshold, identifying transaction made by
                   cardholders without appropriate warrant authority. This action will be completed
                   by May 2014.

                   6. In response to recommendations 3 and 4, these actions were accomplished
                   with the last revision of VA’s Financial Policy “Government Purchase Card
                   Program, Volume XVI, Chapter1, dated December 2013. A copy of the updated
                   policy was provided to the OIG in December 2013. We request closure of these
                   recommendations.

                   7. Regarding recommendation 5, OM will develop new procedures to elevate
                   unauthorized commitments that have not been ratified pending implementation of
                   recommendation 8 by the Principal Executive Director, OALC, within three months
                   of OALC establishing policies and procedures. To ensure alignment, we are
                   unable to provide the date/month this will be accomplished until OALC establishes
                   the recommended policies and procedures.


                   8. If you have any questions, please call me or have a member of your staff
                   contact Laurie Park, Acting Deputy Assistant Secretary for Finance, at 202-461-
                   6180.




VA Office of Inspector General                                                                         23
                                                     Review of Alleged Unauthorized Commitments Within VA


Appendix G            Principal Executive Director, Office of Acquisition,
                      Logistics, and Construction



                  Department of                                        Memorandum
                  Veterans Affairs

          Date:	     April 30, 2014

          From:	     Principal Executive Director, Office of Acquisition, Logistics, and Construction (003)


          Subj:	     OIG Draft Report, Review of Alleged Unauthorized Commitments Project Number 

                     2013-00991-R3-0065 (VAIQ 7457478)


            To:      Inspector General for Audits and Evaluations (52AT)


                     1. The Office of Acquisition, Logistics, and Construction (OALC) has reviewed the
                     subject report and concurs with the report findings with the exception of
                     Recommendation #8.
                     2. OALC has no technical comments that contribute to the report, but provides the
                     following corrective actions for the recommendations listed below. I anticipate that
                     each corrective action listed below will be completed on or before the end of this
                     fiscal year.
                        a. OIG Recommendation 6: We recommend the Principal Executive
                        Director, Office of Acquisition, Logistics, and Construction, direct Heads of
                        Contracting Activities to perform individual ratification actions for unauthorized
                        commitments identified by the Executive in Charge, Office of Management and
                        Chief Financial Officer’s review of fiscal year (FY) 2012 and 2013 purchase
                        card transactions above the micro-purchase threshold.
                        OALC Response: OALC will issue a memorandum directing the Heads of
                        Contracting Activities (HCAs) to perform individual ratification actions for
                        unauthorized commitments identified by the Office of Management, and Chief
                        Financial Officer’s review of FY 2012 and 2013 purchase card transactions
                        above the micro-purchase threshold. OALC will also develop policy that
                        requires HCAs to implement guidance ensuring individual ratifications are
                        performed for unauthorized commitments.
                        b. OIG Recommendation 7: We recommend the Principal Executive
                        Director, Office of Acquisition, Logistics, and Construction, create and maintain
                        an accurate database of warranted VA contracting officers that includes
                        warrant effective and expiration dates, and specific warrant authority
                        limitations.
                        OALC Response: In January 2014, OALC transitioned to an interim warrant
                        management system call eCERT, in an effort to create and maintain an
                        accurate database of warranted VA contracting officers. As directed by Office




VA Office of Inspector General                                                                                24
                                                   Review of Alleged Unauthorized Commitments Within VA




                   Page 2.

                   OIG Draft Report, Review of Alleged Unauthorized Commitments Project Number
                   2013-00991-R3-0065 (VAIQ 7457478)



                      of Management and Budget, the Department will transition to the Federal-wide
                      system under development.

                      c. OIG Recommendation 8: We recommend the Principal Executive
                      Director, Office of Acquisition, Logistics, and Construction, establish policies
                      and procedures requiring Heads of Contracting Activities to complete
                      ratification actions within a specified time period after the identification of
                      unauthorized commitments.
                      OALC Response: OALC will develop a policy that requires HCAs to
                      implement guidance ensuring ratification action are completed within a
                      specified time period after the identification of unauthorized commitments.
                      However, recommending disciplinary actions for individuals outside the HCA’s
                      administrative authority is inappropriate. Disciplinary action in those cases is
                      at the discretion of the supervisor. Department of Veterans Affairs Handbook
                      5021/15 Part I Appendix A, Offense #41, page I-A-9 (attached) addresses the
                      misuse of Government purchase cards.
                      d. OIG Recommendation 9: We recommend the Principal Executive
                      Director, Office of Acquisition, Logistics, and Construction, limit institutional
                      ratifications by ensuring every unauthorized commitment meets the ratification
                      review requirement.

                      OALC Response: OALC will develop policy that limits institutional ratification
                      by ensuring every unauthorized commitment meets the ratification review
                      requirement and establish guidance on the use of quantum meruit and
                      quantum valebant.

                   3. Should you have any questions regarding this submission, please contact Ms.
                   Annette Powe at (202) 632-5454 or email at annette.powe@va.gov.




                   Attachment




VA Office of Inspector General                                                                            25
                                 Review of Alleged Unauthorized Commitments Within VA




VA Office of Inspector General                                                    26
                                        Review of Alleged Unauthorized Commitments Within VA


Appendix H          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	          For more information about this report, please
                                             contact the Office of Inspector General at
                                             (202) 461-4720.

                      Acknowledgments        Kent Wrathall, Director
                                             Melissa Colyn
                                             Marci Davis
                                             Earl Key
                                             Annie Yue Li
                                             Jessica Rodriguez
                                             Nelvy Viguera Butler




VA Office of Inspector General                                                           27
                                           Review of Alleged Unauthorized Commitments Within VA


Appendix I          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




              This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                              28
